/'~            DEPARTMENT OF HEALTH & HUMAN SERVICES                                    OFFICE
                                                                                        OFFICEOF
                                                                                               OFINSPECTOR
                                                                                                  INSPECTORGENERAL
                                                                                                           GENERAL
/'~ DEPARTMNT OF HEALTH & HUMAN SERVICES

t-£
 ~. . o»­
 ~....o~
                                                                                         Ofce
                                                                                         OfficeofofAudit
                                                                                         Public
                                                                                         150
                                                                                                    AuditServce,
                                                                                          Public Ledger
                                                                                                          Services,Region
                                                                                                 Leger Buildi,
                                                                                          150S.S.Independence
                                                                                                   IndependenceMaI
                                                                                         Philadelphia,
                                                                                          Philadelphia,PA
                                                                                                                   MallWest
                                                                                                                           m
                                                                                                                    Region m
                                                                                                        Building,Suite
                                                                                                                  Suite316

                                                                                                                       316
                                                                                                                        West
                                                                                                             PA19106-3499
                                                                                                                19106-3499


                                                       JUL 11552009
                                                       JUL     2009



            Report Number: A-03-07-00036
            Report         A-03-07-00036

            Mr. Todd
            Mr. Todd Kerr
                      Kerr
            Senior Vice President and Chief Compliance
            Senior                          Compliance Officer
                                                       Offcer
            Fresenius Medical
            Fresenius Medical Care
                              Care North
                                    North America
                                          America
            920 Winter
            920 Winter Street
                       Street
            Waltham, Massachusetts
            Waltham,  Massachusetts 02451-1457
                                     02451-1457

            Dear Mr. Kerr:
            Dear     Kerr:

            Enclosed is
            Enclosed   is the
                          the U.S.
                              U.S.Department
                                    Deparent ofofHealth
                                                    Healthand
                                                           andHuman
                                                                HumanServices
                                                                         Services (HHS), Office
                                                                                           Office of
                                                                                                  ofInspector
                                                                                                      Inspector
            General (OIG), final report entitled "Payments
                                                    "Payments for
                                                                for Epogen
                                                                     Epogen Administered at Fresenius Medical
            Care-Anacostia,Distrct
            Care-Anacostia,      DistrictofofColumbia."
                                              Columbia."WeWewilwillforward
                                                                     forwardaacopy
                                                                               copyof
                                                                                    ofths
                                                                                       thisreport
                                                                                            reporttotothe
                                                                                                       the HHS
                                                                                                           HHS
            action official  noted on the   following page for review   and any action deemed   necessary.
                   official noted on the following page for review and any action deemed necessar.

            The HHS action official will  make final
                                      wil make   final determnation
                                                       determinationasastotoactions
                                                                             actionstaken
                                                                                      taken on
                                                                                             on all
                                                                                                all matters
                                                                                                    matters reported.
                                                                                                             reported.
            We request that  you respond  to this official within 30 days
                        that you respond to ths offcial withn 30 days from  from  the  date of this letter.
                                                                                               this letter. Your
            response should present any comments or additional information that you believe may have a
            bearing
            bearng on the final determnation.
                                 determination.

                             Freedom of
            Pursuant to the Freedom    of Information  Act, 5 U.S.c.
                                          Inormation Act,     U.S.c. §§ 552,
                                                                        552, OIG
                                                                             OIG reports
                                                                                    reports generally
                                                                                            generally are made
            available to the public to the extent that information in the report is not subject to exemptions in
            the Act. Accordingly, ths
                Act. Accordingly,   thisreport
                                         report wil
                                                willbe
                                                     beposted
                                                        postedon
                                                               onthe
                                                                  theInternet
                                                                       Internet at
                                                                                at http://oig.hhs.gov.
                                                                                   http://oig.hhs.gov.

            If
            If you
               you have
                    have any questions
                             questions or
                                       or comments
                                          comments about
                                                      about this report, please do not hesitate to call me at
                                                             ths report,
            (215)
            (215) 861-4470 or though email at Stephen.Virbitskvcmoig.hhs.gov, or
                   861-4470  or through email at Stephen.Virbitsky@oig.hhs.gov,      or contact
                                                                                        contact Bernard   Siegel,
                                                                                                 Bernard Siegel,
            Audit Manager, at (215) 861-4484 or through     email at
                                                   though email    at Bernard.Siegelcmoig.hhs.gov.
                                                                      Bernard.Siegel@oig.hhs.gov. Please refer
            to report number
                      number AA-03-07-00036   in
                                -03-07 -00036 in all correspondence.
                                                     correspondence.

                                                             Sincerely,
                                                             Sincerely,


                                                             )f+L ~
                                                             )f+L~
                                                             Stephen Virbitsky
                                                             Stephen  Virbitsky
                                                             Regional Inspector
                                                             Regional  Inspector General
                                                                                 General
                                                               for Audit
                                                               for Audit Services
                                                                         Services


            Enclosure
            Enclosure
Page 2 -- Mr. Todd Kerr


Direct Reply to HHS Action
                    Action Official:
                           Offcial:

Janet Samen
Director, Division of Chronic Care Management
Center for Medicare Management (CCPG/DCCM)
                                  (CCPGIDCCM)
Centers for Medicare && Medicaid Services
Mail Stop C5-05-07
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Janet.Samen@cms.hhs.gov
J anet.Samen cmcms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





       PAYMENTS FOR 

   EPOGEN ADMINISTERED AT

  FRESENIUS MEDICAL CARE –

         ANACOSTIA,

    DISTRICT OF COLUMBIA





                    Daniel R. Levinson

                     Inspector General 


                        July 2009

                      A-03-07-00036

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services administers the program.

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. Individuals diagnosed with end-stage renal disease often suffer from anemia and
Epogen lessens the effects of anemia for those patients. Epogen doses are generally adjusted by
a physician based on a review of the patient’s medical record. For facilities that use a
preestablished dosing algorithm, a nurse may also adjust the Epogen dose to maintain an optimal
hematocrit (red blood cell) level.

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

Fresenius Medical Care—Anacostia (Anacostia), located in the District of Columbia, is one of
more than 1,500 renal dialysis facilities operated by Fresenius Medical Care North America.
Anacostia provides treatment for end-stage renal disease using 18 renal dialysis stations. It
received payments totaling $4,984,636 for Medicare services provided from January 1, 2004
through June 30, 2006. Of this amount, $1,772,035 was for the administration of Epogen.
During our audit period, Anacostia used dosing algorithms to adjust patient Epogen doses.

OBJECTIVE

Our objective was to determine whether Anacostia administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Anacostia’s medical records.

SUMMARY OF FINDING

For 76 of the 100 sampled claims, Anacostia administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Anacostia’s medical records. However, Anacostia did not meet the Medicare payment
requirements for some dates of services for 24 claims (two of the claims had multiple errors). In
those instances, we identified discrepancies in Anacostia’s medical and billing records between
the units of Epogen ordered by the patients’ attending physicians and the units administered to
the patients, billed by Anacostia, and paid by Medicare.



                                                i
   •	 For seven claims, Anacostia’s medical and billing records reflected that more units of
      Epogen were administered to patients, billed by Anacostia, and paid by Medicare than
      were ordered by the patients’ attending physicians, resulting in overpayments totaling
      $1,396.

   •	 For two claims, Anacostia’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by the patients’ attending physicians and the units
      administered to patients, billed by Anacostia, and paid by Medicare. For purposes of this
      report, we considered these errors procedural because they did not result in
      overpayments.

   •	 For 17 claims, Anacostia’s medical records reflected errors in documenting the ordering
      and administration of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For the purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 24 claims occurred because nurses responsible for administering
Epogen did not always follow the policies and procedures in the Fresenius Manual for ensuring
that the units of Epogen administered were equal to the dose ordered by the attending physician
as reflected in the patients’ medical records. Also, attending physicians and nurses did not
always follow the policies and procedures in the Fresenius Manual for ensuring that patient
treatment sheets and medical records were properly documented. As a result, Anacostia received
$1,396 in overpayments and patients did not always receive the amounts of Epogen ordered by
attending physicians. When attending physicians’ orders are not followed, quality of care may
be affected.

RECOMMENDATIONS

We recommend that Anacostia:

   •	 refund $1,396 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by the
      patients’ physicians and the units administered to the patient, billed by Anacostia, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report (see Appendix), Fresenius stated that it will contact the
intermediary about refunding the $1,396 in overpayments and that the nursing staff will undergo
a training program to improve compliance with policies and procedures relating to the ordering
and administration of Epogen. Fresenius also brought to our attention a technical correction
regarding its algorithm policy that we have amended in the report.




                                               ii
                                                 TABLE OF CONTENTS 


                                                                                                                                   Page

INTRODUCTION........................................................................................................................1 


          BACKGROUND ...............................................................................................................1         

              Medicare ................................................................................................................1      

              Epogen Therapy for End-Stage Renal Disease Patients ........................................1 

              Medicare Requirements and Payment for End-Stage Renal Disease Services......2 

              Fresenius Medical Care—Anacostia......................................................................2                         

              Fresenius’s Policy Manual and Medical Information System ...............................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................3 

               Objective ................................................................................................................3    

               Scope......................................................................................................................3   

               Methodology ..........................................................................................................3        


FINDINGS AND RECOMMENDATIONS ..............................................................................4 


          FEDERAL REQUIREMENTS..........................................................................................5                     

               Medical Recordkeeping .........................................................................................5               

               Medicare Payment Procedures...............................................................................5                    


          CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS ..........5 

               More Units of Epogen Billed and Paid Than Administered ..................................6 

               More Units of Epogen Administered, Billed, and Paid Than Ordered..................6 


          CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN
            DISCREPANCIES.........................................................................................................7 

                Fewer Units of Epogen Administered, Billed, and Paid Than Ordered.................7 

                Claim Not Correctly Billed....................................................................................7 


          CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN 

            DISCREPANCIES.........................................................................................................8 


          FERESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED .............9 


          RECOMMENDATIONS.................................................................................................10                  


          FRESENIUS COMMENTS ............................................................................................10                   


APPENDIX

          FRESENIUS MEDICAL CARE NORTH AMERICA COMMENTS




                                                                   iii
                                              INTRODUCTION                                                            


BACKGROUND

Medicare

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people 65 years of age and older, people under 65 with certain disabilities,
and people of all ages with end-stage renal disease (permanent kidney failure requiring a kidney
transplant or dialysis). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Epogen Therapy for End-Stage Renal Disease Patients

Section 1881(a) of the Act establishes the benefits provided by Medicare Parts A and B for
individuals who have been determined to have end-stage renal disease as provided in
section 226A of the Act. Benefits include injections of Epogen, usually administered during
dialysis. 1

Individuals diagnosed with end-stage renal disease often suffer from anemia, and Epogen lessens
the effects of anemia for those patients. The initial dose of Epogen is based on an individual’s
weight and hematocrit level, a measure of the percentage of red blood cells in the blood. The
target hematocrit level for dialysis patients receiving Epogen therapy is 30 to 36 percent, which
represents a hemoglobin level of 10 to 12 grams per deciliter. 2 For dialysis patients, hematocrit
levels above 36 percent can lead to increased risk of cardiovascular complications and death. 3

Epogen doses are generally adjusted by a physician based on a review of the patient’s medical
record. Some facilities may also use a preestablished dosing algorithm. An algorithm is a
formula established by attending physicians. It requires the nurse on duty to gather information
from the patient’s medical record and determine the correct dose of Epogen to maintain an
optimal hematocrit level. Based on the algorithm, a nurse may decrease, increase, or maintain
the Epogen dose or temporarily suspend the dose for one or more treatments. Fresenius Medical
Care—Anacostia (Anacostia) used algorithms to determine the dose of Epogen to administer to
its patients.




1
 Epogen is an “erythropoiesis-stimulating agent,” manufactured by Amgen, which stimulates the production of red
blood cells.
2
    CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 60.4.
3
 After our audit period, the Food and Drug Administration issued a black box label warning for Epogen that
“erythropoiesis-stimulating agents (ESAs) increased the risk for death and for serious cardiovascular events when
administered to target a hemoglobin of greater than 12 [grams per deciliter] . . . .” Food and Drug Administration,
“Epogen Label,” March 9, 2007. Available online at http://www.fda.gov/cder/foi/label/2007/103234s5122lbl.pdf.
Accessed on April 23, 2009.


                                                          1

Medicare Requirements and Payments for End-Stage Renal Disease Services

As a basis for payment, section 1833(e) of the Act states: “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due . . . .” Federal
regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information, upon
request, to determine whether payment is due and, if so, the amount to be paid.

CMS’s “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 8, section 10.1,
specifies that renal dialysis facilities receive a composite rate for outpatient maintenance dialysis
services. The composite rate is a comprehensive payment for dialysis services except for bad
debt, physicians’ patient care services, separately billable laboratory services, and separately
billable drugs, including Epogen. CMS contracts with fiscal intermediaries 4 to process and pay
Medicare Part B claims for Epogen administered by renal dialysis facilities. Generally, for each
patient, providers submit one bill per month, which includes the charges for up to 14 dialysis
treatments, separately billable laboratory services, and separately billable drugs, including
Epogen. Providers submitted claims that identified the total units of Epogen administered to
each patient during the billing period, not the dose of Epogen administered during each
treatment. Payments for Epogen are subject to Medicare Part B deductible and coinsurance
requirements.

Fresenius Medical Care—Anacostia

Fresenius Medical Care North America (Fresenius), located in Waltham, Massachusetts, is a
wholly owned subsidiary of Fresenius Medical Care AG & Company KGaA, located in Bad
Homburg, Germany. Fresenius provides products and services for individuals with chronic
kidney failure.

Anacostia, located in the District of Columbia, is one of more than 1,500 renal dialysis facilities
operated by Fresenius. Anacostia provides treatment for end-stage renal disease at 18 renal
dialysis stations. It received payments totaling $4,984,636 for Medicare services provided from
January 1, 2004, through June 30, 2006. Of this amount, $1,772,035 was for the administration
of Epogen.

Fresenius’s Policy Manual and Medical Information System

To assist in its facilities’ efforts to comply with requirements under Federal and State law,
Fresenius established a medical record policy and documentation procedures in its Policy
Manual No. 138-030-040-2 (Fresenius Manual). The Fresenius Manual requires that each
facility must develop a process to identify any change in the ordered prescription drugs and enter
the change and the treatment in Fresenius’s Medical Information System (Fresenius System).
The Fresenius System prints a treatment sheet for each patient that lists selected patient

4
 During the audit period, the Medicare Part B claims we reviewed were processed and paid by fiscal intermediaries.
The Medicare Modernization Act of 2003, P. L. No. 108-173, which became effective on October 1, 2005, amended
certain sections of the Act, including section 1842(a), to require that Medicare administrative contractors replace
carriers and fiscal intermediaries by October 2011.


                                                         2

information from the previous treatment, the latest results of laboratory tests, and the required
services scheduled for the day’s treatment. The Fresenius Manual requires that each scheduled
service on the treatment sheet must be initialed or signed by the administering nurse, as
completed. The completed services, as well as any changes noted, must be entered into the
Fresenius System on a timely basis.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Anacostia administered, billed, and was paid for units of
Epogen consistent with the units that were ordered by attending physicians, as reflected in
Anacostia’s medical records.

Scope

Our review covered 2,231 monthly claims totaling $1,772,035 for Epogen administered by
Anacostia from January 1, 2004, through June 30, 2006.

We limited our review of Anacostia’s internal controls to the administration of and billing for
Epogen, including medical recordkeeping. The objective of our review did not require an
understanding or assessment of Anacostia’s complete internal control structure. We did not
determine the medical necessity of any items or services, including Epogen.

We performed fieldwork at Anacostia in the District of Columbia, and the Fresenius
headquarters in Waltham, Massachusetts.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Federal laws, regulations, and guidance related to the treatment of
      end-stage renal disease, renal dialysis facilities, and the administration of Epogen;

   •	 reviewed applicable State laws, regulations, and guidance related to Anacostia’s policies
      and procedures and the Fresenius Manual;

   •	 reviewed Anacostia’s policies and procedures, including the Fresenius Manual, and its
      medical recordkeeping and billing practices;

   •	 interviewed Fresenius and Anacostia officials;

   •	 identified and assessed the adequacy of internal controls related to the administration of
      and billing for Epogen; and




                                                 3

   •	 identified a sampling frame of all claims in the CMS claims history file with Epogen
      administered at Anacostia from January 1, 2004, through June 30, 2006, and:

       o	 selected from the sampling frame a simple random sample of 100 claims for Epogen
          totaling $88,170 and

       o	 for each sampled claim, compared the units of Epogen ordered by the Anacostia
          attending physician, administered to the patient, billed by Anacostia, and paid by
          Medicare to determine whether such units, as reflected in Anacostia’s medical and
          billing records, were consistent with each other.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

For 76 of the 100 sampled claims, Anacostia administered, billed, and was paid for units of
Epogen that were consistent with the units ordered by attending physicians, as reflected in
Anacostia’s medical records. However, Anacostia did not meet the Medicare payment
requirements for some dates of services for 24 claims (two of the claims had multiple errors). In
those instances, we identified discrepancies in Anacostia’s medical and billing records between
the units of Epogen ordered by the patients’ attending physicians and the units administered to
the patients, billed by Anacostia, and paid by Medicare.

   •	 For seven claims, Anacostia’s medical and billing records reflected that more units of
      Epogen were administered to patients, billed by Anacostia, and paid by Medicare than
      were ordered by the patients’ attending physicians, resulting in overpayments totaling
      $1,396.

   •	 For two claims, Anacostia’s medical and billing records reflected discrepancies between
      the units of Epogen ordered by the patients’ attending physicians and the units
      administered to patients, billed by Anacostia, and paid by Medicare. For purposes of this
      report, we considered these errors procedural because they did not result in
      overpayments.

   •	 For 17 claims, Anacostia’s medical records reflected errors in documenting the ordering
      and administration of Epogen but not discrepancies in the quantities of Epogen ordered,
      administered, billed, or paid. For the purposes of this report, we considered these errors
      procedural because they did not result in overpayments.

The errors related to these 24 claims occurred because nurses responsible for administering
Epogen did not always follow the policies and procedures in the Fresenius Manual for ensuring
that the units of Epogen administered were equal to the dose ordered by the attending physician


                                                4

as reflected in the patients’ medical records. Also, attending physicians and nurses did not
always follow the policies and procedures in the Fresenius Manual for ensuring that patient
treatment sheets and medical records were properly documented. As a result, Anacostia received
$1,396 in overpayments and patients did not always receive the amounts of Epogen ordered by
attending physicians. When attending physicians’ orders are not followed, quality of care may
be affected.

FEDERAL REQUIREMENTS

Medical Recordkeeping

As a condition of coverage during our audit period, renal dialysis facilities were required to
centralize all clinical information in each patient’s medical record in accordance with accepted
professional standards and practices (42 CFR § 405.2139). 5 The medical records were required
to be “completely and accurately documented, readily available, and systematically organized to
facilitate the compilation and retrieval of information.” Subsection (a) of 42 CFR § 405.2139
further stated that medical records must contain certain general categories of information,
including “diagnostic and therapeutic orders; observations, and progress notes; reports of
treatments and clinical findings . . . .”

Medicare Payment Procedures

As a basis for payment, section 1833(e) of the Act states that “No payment shall be made to any
provider of services or other person under this part unless there has been furnished such
information as may be necessary in order to determine the amounts due such provider or other
person under this part for the period with respect to which the amounts are being paid or for any
prior period.”

Federal regulations (42 CFR § 424.5(a)(6)) require providers to furnish sufficient information,
upon request, to determine whether payment is due and, if so, the amount to be paid.

CLAIMS FOR EPOGEN NOT CONSISTENT WITH PHYSICIANS’ ORDERS

For each sample claim, we compared Anacostia’s medical and billing records with respect to the
units of Epogen (1) ordered by the patients’ attending physicians, (2) administered by the nurse
to the patient, (3) billed by Anacostia, and (4) paid by Medicare. For seven claims with
questioned amounts totaling $1,396, there were discrepancies in Anacostia’s medical and billing
records between the units of Epogen ordered by the attending physician and the units of Epogen
administered and billed by Anacostia, and paid by Medicare. Anacostia administered, billed, and
was paid for higher doses than ordered by the attending physician, as documented in Anacostia’s
medical and billing records.




5
 This condition for coverage was amended effective October 14, 2008. The amended condition for coverage is now
at 42 CFR § 494.170.


                                                      5

More Units of Epogen Billed and Paid Than Administered

For two claims covering two patients, Anacostia billed and Medicare paid for 9,000 more units
of Epogen, totaling $70, than administered and ordered.

   •	 For one claim, the Anacostia medical and billing record reflected a change in the dose,
      dated May 1, 2006, that increased the units of Epogen from 10,000 to 15,000. The
      patient’s treatment sheet for May 1, 2006, reflected that Anacostia administered 10,000
      units of Epogen; however, Anacostia billed and Medicare paid for 15,000 units. As a
      result, Anacostia billed and Medicare paid for 5,000 more units of Epogen, totaling $38,
      than was administered.

   •	 For one claim, the Anacostia medical and billing record reflected a prescribed dose, dated
      January 24, 2004, of 2,000 units of Epogen. The treatment sheet for April 29, 2004,
      reflected that Anacostia administered 2,000 units of Epogen but Anacostia billed and
      Medicare paid for 6,000 units of Epogen units. As a result, Anacostia billed, and
      Medicare paid for 4,000 more units of Epogen, totaling $32, than was ordered and
      administered.

More Units of Epogen Administered, Billed, and Paid Than Ordered

For five claims covering five patients, Anacostia’s medical records reflected attending
physicians’ orders that prescribed Epogen, but the nurse administered, Anacostia billed, and
Medicare paid for 170,000 more units of Epogen, totaling $1,326 than was ordered.

   •	 For one claim, the attending physician’s order reflected in the Medical Summary Report
      (Hemodialysis Standing Orders) prescribed a dose of 30,000 units of Epogen. For the
      month reviewed, nurses administered 40,000 units of Epogen with each treatment, the
      amount reflected on the treatment sheets. As a result, the patient received, Anacostia
      billed, and Medicare paid for 130,000 more units of Epogen, totaling $1,015, than was
      ordered.

   •	 For one claim, the attending physician’s order, dated April 11, 2006, suspended the
      Epogen dose; however, nurses administered 8,000 units of Epogen on April 20 and 22
      that were covered by the physician order to suspend Epogen. The patient’s treatment
      sheets for the two days reflected a dose of 8,000 units of Epogen with each treatment. As
      a result, the patient received, Anacostia billed, and Medicare paid for 16,000 more units
      of Epogen, totaling $119, than was ordered.

   •	 For one claim, the attending physician’s order prescribed a dose of 15,000 units of
      Epogen and the treatment sheet reflected 15,000 units. However, 30,000 units of Epogen
      were administered, billed, and paid. The patient’s treatment sheet for that day reflected a
      dose of 15,000 units but the nurse crossed out the printed dose and wrote 30,000 units on
      the treatment sheet. As a result, the patient received, Anacostia billed, and Medicare paid
      for 15,000 more units of Epogen, totaling $120, than was ordered.



                                                6

   •	 For one claim, the attending physician’s signed telephone order prescribed a dose of
      1,000 units of Epogen; however, for one treatment, the nurse administered 6,000 units of
      Epogen. The patient’s treatment sheet for that day reflected a dose of 1,000 units but the
      nurse crossed out the printed dose and wrote 6,000 units on the treatment sheet. As a
      result, the patient received, Anacostia billed, and Medicare paid for 5,000 more units of
      Epogen, totaling $40, than was ordered.

   •	 For one claim, the attending physician’s order increased the units of Epogen prescribed
      for one patient from 5,000 to 6,000 units; however, for one treatment the nurse
      administered 10,000 units of Epogen. The patient’s treatment sheet for that day reflected
      a dose of 5,000 units but the nurse crossed out the printed dose and wrote 10,000 units on
      the treatment sheet. As a result, the patient received, Anacostia billed, and Medicare paid
      for 4,000 more units of Epogen, totaling $32, than was ordered.

CLAIMS WITH PROCEDURAL ERRORS THAT RESULTED IN DISCREPANCIES

For two claims, Anacostia’s medical and billing records reflected discrepancies between the
units of Epogen ordered by the patients’ attending physicians and the units administered to the
patients, billed by Anacostia, and paid by Medicare for one or more dates of service during the
month reviewed. These claims did not result in overpayments and are, for purposes of this
report, considered procedural errors. For one claim, the patient received lower doses than
ordered. One claim was not correctly billed.

Fewer Units of Epogen Administered, Billed, and Paid Than Ordered

For one claim, Anacostia’s medical records included a physician order, dated September 9, 2005,
to increase the units of Epogen from 16,000 to 20,000 units. During November 2005 and
January 2006, the patient was hospitalized. The Anacostia medical records did not reflect the
doses of Epogen that were administered to the patient during hospitalization. Also, for February
2006, the month reviewed, the Anacostia medical records did not reflect the dose of Epogen
ordered, but nurses administered 10,000 units of Epogen for the 12 treatments in February 2006.
The last physician order was for 20,000 units per treatment. Anacostia administered, billed, and
was paid for fewer units of Epogen than ordered.

Claim Not Correctly Billed

For one claim, the Anacostia medical and billing records included a physician’s order, dated
April 29, 2004, to decrease the units of Epogen from 30,000 to 10,000 units. The treatment sheet
for April 28, 2004, reflected that Anacostia administered 30,000 units of Epogen. However,
Anacostia billed and Medicare paid for 10,000 units of Epogen. As a result, Anacostia was paid
for 20,000 fewer units of Epogen, totaling $160, than was ordered and administered.




                                                7

CLAIMS WITH PROCEDURAL ERRORS THAT DID NOT RESULT IN
DISCREPANCIES

The District of Columbia Municipal Regulations, title 17, chapter 46, requires that “[a] licensed
physician shall maintain a record for each patient which accurately reflects the evaluation and
treatment of the patient.” (17 DCMR § 4612 (1989)) Chapter 54 describes the practice of
registered nursing to include “the administration of medications and treatment as prescribed by a
legally authorized healthcare professional licensed in the District of Columbia.” (17 DCMR §
5414 (2004)). To assist facilities in documenting compliance with Federal and State
requirements, the Fresenius Manual requires an order for all new medications or whenever a
medication dose changes, along with the signature of the ordering physician. Nurses are
responsible for ensuring that all medications provided to patients have accurately documented
physician orders. Administering nurses are required to sign or initial on the treatment sheet to
show that a medication, including Epogen, has been administered.

For 17 claims, the Anacostia medical records reflected errors in documenting the ordering and
administration of Epogen. However, Anacostia billed for and was reimbursed for the units
ordered or administered.

       •	 For 10 of these claims, the patients’ medical records lacked the signature/initials of
          the attending physician, as required by Anacostia’s internal policies, including those
          in the Fresenius Manual. The attending physician provided these orders by telephone
          and the nurses documented them in the patients’ medical records. However, the
          attending physician did not sign the order in accordance with Anacostia and Fresenius
          policies and procedures. The administering nurse administered the units of Epogen
          consistent with the attending physician’s telephone order.

       •	 For three of these claims, the treatment sheets for one date of service were not in the
          Anacostia medical record. Anacostia billed and Medicare paid for the units of
          Epogen prescribed by the attending physicians order for the period reviewed.

       •	 For three of these claims, the attending physicians’ orders for the months reviewed
          were not in the medical record. Although the physicians’ orders were missing for the
          month reviewed, the medical record for two claims included documents that reflected
          prior physician orders with higher units of Epogen than administered, and the other
          claim reflected a physician order that referred to a previous Epogen order. Anacostia
          billed and Medicare paid for the units of Epogen reflected on the dialysis treatment
          sheets.

       •	 For one of these claims, the patient’s medical record did not include an attending
          physician order and the patient treatment sheets for the month reviewed.




                                                8

FRESENIUS POLICY AND PROCEDURES NOT ALWAYS FOLLOWED

To assist in its facilities’ efforts to comply with requirements under Federal law and States’
respective Nurse Practice Acts, Fresenius established the Fresenius Manual, which includes
medical record policies and documentation procedures. The Fresenius Manual requires that each
facility develop a process to record in the Fresenius System the results of each treatment and
changes to existing treatments, including the dose of Epogen to be administered.

    •	 The Fresenius System prints a treatment sheet for the patient’s next treatment.
       Administering nurses and patient care technicians provide treatment according to
       instructions printed on treatment sheets and administering nurses must ensure that all
       medications provided to the patient have been accurately documented with signed
       attending physician orders. Section A of the Fresenius Manual, “Physician Orders,”
       states that “[p]roviding service without physician orders is in violation of nurse practice
       acts.” Accordingly, the attending physician must provide a written order for an
       administering nurse to begin a new medication or to change the dose of a medication. 6

    •	 Each facility must develop a process by which the attending physician “flags” charts that
       have new or changed orders so that authorized support personnel can identify that a
       change has occurred and enter the change in the Fresenius System. Also, the Fresenius
       Manual identifies the duties and responsibilities for accurately documenting and updating
       its Fresenius System with changes to a patient’s treatment. After entry into the Fresenius
       System, those changes will be reflected on the patient’s next treatment sheet.

    •	 Results of a patient’s treatment, documented on the treatment sheet, must not be entered
       into the Fresenius System until the treatment is completed. A treatment sheet is
       considered completed after the administering nurse has given the treatment to the patient,
       administered all medications ordered, and confirmed the completion of these tasks by
       including their initials or signatures on the treatment sheet where appropriate.

Although Anacostia had controls in place as specified in the Fresenius Manual, based on our
review, Anacostia personnel did not always follow all of these procedures. Nurses responsible
for administering Epogen did not always follow the policies and procedures in the Fresenius
Manual for ensuring that the units of Epogen administered were equal to the dose ordered by the
attending physician as reflected in the patients’ medical records.

Also, attending physicians did not always sign orders for Epogen, nurses did not always sign
patient treatment sheets, and Anacostia medical records did not always include physician orders
or patient treatment sheets.




6
 The Fresenius Manual permits a physician to provide telephone orders; however, the physician must sign the order
during the next facility visit.


                                                        9

RECOMMENDATIONS

We recommend that Anacostia:

   •	 refund $1,396 in overpayments and

   •	 ensure that it follows policies and procedures that are consistent with Federal
      requirements in order to avoid discrepancies between the units of Epogen ordered by the
      patients’ physicians and the units administered to the patient, billed by Anacostia, and
      paid by Medicare.

FRESENIUS COMMENTS

In comments on our draft report, Fresenius stated that it will contact the intermediary about
refunding the $1,396 in overpayments and that the nursing staff will undergo a training program
to improve compliance with policies and procedures relating to the ordering and administration
of Epogen. Fresenius also brought to our attention a technical correction regarding its algorithm
policy that we have amended in the report. Fresenius’s comments are included in the Appendix.




                                               10 

APPENDIX 

                                                                                         APPENDIX
                                                                                          Page 1 of 3




                                       V
                          Fresenius Medical Care
                               North America
   June 19, 2009

   Stephen Virbitsky
   Regional Inspector General for Audit Services
   OffICe of Audit Services, Region III
   Public ledger Building, Suite 316
   150 S. Independence Mall West
   Philadelphia. PA 191Q6..3499

   Re: Audit Draft A-03-07-OOO36, Payments for Epogen Administered at
   Freseniu$ Medical Care-Anaoostia, District of Columbia

   Dear Mr. Virbitsky.

   Thank you for the opportunity to review and respond to your office's Draft
   Report.

   The results of this draft report are consistent with other Medicare claims
   reviews conducted internally by Fresenius staff (as part of Fresenius' ongoing
   compliance audit program activities) and with other external reviews such as
   CERT and PERM. Of the $88,170.00 in claims reviewed. $1,396 was
   identified by the audit as not eligible for Medicare reimbursement - reflecting
   1.58% of the sampled claims. This payment error rate compares favorably to
   the most recent May 2008 3.7% CERT national paid claims error rate,

   In response to these audit findings Fresenius will take the following steps:


   DIG Audit Recommendation:

   Wensure that it follows policies and procedures that are consistent with Federal
   requirements in order to avoid discrepancies between the units of Epogen
   ordered by the patients' physicians and the units administered to the patient,
   billed by Anacostia, and paid by Medicare",

   Fresenius Corrective Action Taken or Planned:

   While the payment error rate is low, we recognize the need for the facility to
   improve its compliance with policies and procedures relating to the ordering
   and administration of Epogen. Therefore, the clinic will take the following
   steps:

Fresen;us Medical Care North America
COfpOrate Headquarters:    920 Winter Street   Waltham, MA 02451·1457   (781) 699-9000
                                                                                          APPENDIX
                                                                                           Page 2 of 3




       •   All nursing staff will undergo an in-service program designed to inform
           the staff of: (a) the statutes and regulations relating to creating and
           maintaining medical record documentation; (b) the applicable
           Fresenius policies, including but not limited to documentation of
           physician orders and documentation of care fumished while the
           computer medical record is down; (c) the responsibility of each staff
           member to oonform to applicable statutes, regulations, and policies;
           and (d) the oonsequences of failing to oomply with applicable
           Fresenius policies. All new nursing staff members will oontinue to
           undergo Fresenius training which includes the foregoing topics.
       •   Consistent with the Part 494 Conditions for Coverage (42 CFR Section
           494.110 Condition: Ouality assessment and perfonnance
           improvement) for the next 12 months the facility's Quality Assessment
           and Improvement Process will review a sampling of active medical
           reoords to monitor improved compliance with applicable Fresenius
           medical record documentation policies.
       •   The 2010 Fresenius Compliance Audit program will include a review of
           (a) the training activity above, to ensure that all affected employees
           were trained; (b) the (quality improvement process) to ensure that the
           aforementioned reviews occurred; and (c) an assessment of whether
           the training and monitoring has been effective in causing the facility to
           conform to applicable Fresenius policies.

OIG Audit Recommendation:

-refund the S1,396 in overpayments·

Fresenius Corrective Action Taken or Planned:

   •   Given the age of these claims, we will contact the intermediary to
       determine the process to repay overpayments.


Finally, I note that in the Background section of the Introduction, the audit states:

       ·Some facilities may also use a preestablished dosing algorithm. The
       algorithm is a formula established by the facility Medical Director and
       ordered by the physician'-

At Fresenius Medical Care clinics, while the facility Medical Director and
Governing Body review and approve algorithms ordered by slaff physidans, it is
the staff physician (and not the medical director) who establishes the algorithm
for the staff physician's patients. While often all physicians at the clinic (including
the staff physician who serves as medical director) agree to use a single
algorithm, it is the staff physician rather than the medical director who establishes
an algorithm for a particular patient.
Fresenius Medical Care North America
Corporate Headquarters:   920 Winter Street   Waltham, MA 02451-1457   (781) 699-9000
                                                                                      APPENDIX
                                                                                       Page 3 of 3 





Sincerely,




Todd Kerr
Senior Vice President and Chief Compliance Officer
Fresenius Medical Care North America
920 Winter Street
Waltham, MA 02451




Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street   Waltham, MA 02451-1457   (781) 699-9000
